                         UNITED STATES DEPARTMENT OF EDUCATION

                                            OFFICE OF INSPECTOR GENERAL




                                                                                                           MAR 20 2003
                                                                                                         ED-OIG/A05-DOOOI

Theresa S. Shaw
Chief Operating Officer
Federal Student Aid
Union Center Plaza
Room 112Gl
830 First Street, NE
Washington, DC 20202-5132

Sally Stroup
Assistant Secretary
Office of Postsecondary Education
Room 7115
1990 K Street, NW
Washington, DC 20006-5100

Dear Ms. Shaw and Ms. Stroup:

This Final Audit Report presents two issues identified during our audit of Educational
Credit Management Corporation's (ECMC) administration of the Federal Family
Education Loan (FFEL) program Federal and Operating Funds for the period April 1,
2000 through March 31, 2001. The objective of this report is to present these issues
related to the Department of Education's (Department) oversight, which warrants your
attention because oftheir potential negative impact on federal funds at ECMC. First, the
Department has not recalled excess reserve funds totaling about $103 million as of
September 30, 2001. Leaving excess funds at ECMC allowed ECMC to use them for
unintended purposes. Second, the agreement between the Department and ECMC is
unclear in three significant areas: (1) financial restructuring, (2) cost allocation, and (3)
ownership of bankruptcy collections. It is not clear whether the actions taken by ECMC
in these three areas were those intended by the Department, or are in the best interest of
the Department.

We notified Department officials regarding the first issue in Student Financial Assistance
(SFA) Action Memorandum 02-01 dated September 12,2002. We separately reported
our findings on ECMC's compliance with the Higher Education Act of 1965 (HEA), as
amended, in administering its Guarantor Federal and Operating Funds under draft Control
Number ED-OIG/A05-C0014. We also provided Federal Student Aid and the Office of


                                 400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510

         Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.


    ----------------------------------------_._._----_.­
Final Audit Report                                                          ED-OIGIA05-DOOOl


Postsecondary Education a draft copy of this report on February 4,2003. The Office of
Postsecondary Education generally concurred with our findings. We have included their
response as an Attachment.


                                      AUDIT RESULTS

Issue No.1 - The Department Has Not Recalled Excess Reserves

The Department has not recalled excess reserve funds totaling about $103 million as of
                      1
September 30, 2001. In response to SF A Action Memorandum 02-01, the Department
stated that keeping the excess funds at ECMC did not financially harm its interests.
Considering ECMC's reorganization and financial restructuring, it is not prudent to leave
excess reserve funds at ECMC. As we reported in draft Control Number ED-OIGIA05­
COOI4, ECMC inappropriately used the Federal Services Bureau (FSB) Federal Reserve
Fund to pay expenses that benefited the Guarantor Operating Fund and ECMC's for­
profit affiliates. We recommend the Department recall these funds and consider reducing
the amount of reserves it allows ECMC to retain.

ECMC was established in 1994 to provide the Department with the capacity to take over
guaranty agencies that may cease operations and provide other services that the
Department may request. 2 The Department assigned its FFEL bankruptcy loans to
ECMC to finance its operations. The Department also encouraged other guarantors to
assign their bankruptcy loans to ECMC. Once assigned, ECMC assumes all remaining
guaranty agency responsibilities on the loans. In 1996, the Department designated
ECMC as the guarantor for Virginia. The agreement between ECMC and the Department
(Agreement), dated December 21,2000 and signed by the Department on January 3,
2001, required any and all payments ECMC received on the assigned loans to be
accounted for in its FSB Federal Reserve Fund and be maintained in accordance with the
REA and federal regulations. This is a unique fund required by the Agreement with
ECMCand is not the statutory Federal Reserve Fund. The FSB Federal Reserve Fund is
the property of the Federal Government.

The Department's Agreement with ECMC requires ECMC to provide the Department
with an annual report no later than 60 days after the end of the federal fiscal year. The
report includes the revenue sources and amounts, expense types and amounts, and the
FSB Federal Reserve Fund balance. In the event that the balance exceeds 60 percent of
the fiscal year's expenditures, the Department may, in its sole discretion, direct ECMC to
remit all or part of the excess to the Department; retain all or part ofthe excess; or deposit
all or a portion of the excess in a separate sub-account of the Federal Reserve Fund. The
potential recall of federal funds from ECMC's FSB Federal Reserve Fund is separate
from the recall of reserves ECMC's Guarantor Federal Fund is required to remit
according to § 422 of the REA.

I ECMC's audited financial statements were not available at the time we issued our Action Memorandum.
Therefore, it reported excess funds totaling approximately $83 million as of September 30, 2000.
2 Until 1996, ECMC was known as Transitional Guaranty Agency, Inc.




                                                  2

Final Audit Report                                                   ED-OIG/A05-DOOOl


The Department has generally allowed ECMC to retain the excess funds. Based on
ECMC's Form 2000 data as of September 30, 2001, the FSB Federal Reserve Fund was
$134,363,762 and the annual expenses were $23,737,594. Subtracting 60 percent of
annual expenses, the excess reserves equaled about $120 million. ECMC reported only
$103 million in excess funds as of the federal fiscal year ended September 30, 2001.
ECMC calculated the excess funds on a cash basis, the method guaranty agencies
originally used to provide financial data to the Department (Form 1130). The Form 2000
replaced Form 1130 in October 2000, which now requires guaranty agencies to report
their financial data to the Department on an accrual basis. The Agreement does not
stipulate which accounting method ECMC should use to calculate the excess funds. If
ECMC does not use the same financial data the Department is provided to calculate
excess funds, Department officials cannot make appropriate decisions or perform
adequate oversight.

Effective January 1,2001, ECMC reorganized its operations adding seven related-party
entities. Five of the new entities are for-profit corporations. The related-party for-profit
corporations now provide many of the strategic oversight and direction, technology, and
management services formerly provided by ECMC staff. Most of the costs of three of the
new corporations are allocated to the FSB Federal Reserve Fund and the Guarantor
Operating Fund because ECMC is currently their only customer.

ECMC's financial restructuring and reorganization increased the potential risk that the
related-party corporations allocate costs that do not benefit the FSB to the FSB Federal
Reserve Fund or incur greater costs than would be incurred in an arms-length transaction
between unrelated entities. We confirmed this risk while testing ECMC's compliance
with the REA and regulations governing its Federal and Operating Funds for the year
ended March 31,2001. 3 We reported that ECMC inappropriately used the FSB Federal
Reserve Fund to pay expenses that benefited the Guarantor Operating Fund and ECMC's
for-profit affiliates. Considering the inherent risk and our results, it is not prudent to
leave more funds in the FSB Federal Reserve Fund than are required to meet its current
expenses.

In response to SFA Action Memorandum 02-01, the Department stated that keeping the
excess funds at ECMC did not financially harm the Department. Department officials
also stated that if the Department recalled the excess funds, they were not clear on
whether the funds would stay in the Department or would have to be sent to the U.S.
Treasury for general government use. Therefore, the Department decided to keep the
excess funds at ECMC rather than have the funds used for an unintended purpose. The
Department's response did not change our position.




3   Control Number ED-OIG/A05-C0014


                                              3

Final Audit Report 	                                                ED-OIG/A05-DOOOI

Recommendations

We recommend the Chief Operating Officer of Federal Student Aid

1.1 	   Recall $103 million in estimated excess reserves as of September 30, 2001, as
        permitted by the Agreement.

1.2 	   Recall excess reserves in each subsequent year.

1.3 	   Revise the Agreement with ECMC to describe the source of the data and require
        the data be reported on an accrual basis to calculate the amount of excess funds
        held in the FSB each federal fiscal year.

1.4 	   Evaluate whether the percentage of annual expenses ECMC is allowed to retain in
        the FSB Federal Reserve Fund is a reasonable amount.


Issue No.2 - ECMC's Agreement Requires Clarification

The Agreement between the Department and ECMC is unclear in three significant areas:
(1) financial restructuring, (2) cost allocation, and (3) ownership of bankruptcy
collections. As a result, it is not clear whether the actions taken by ECMC were those
intended by the Department, or are in the best interest of the Department. Since the
Agreement affects significant amounts of federal funds, it needs to be sufficiently clear
for the Department and other parties with oversight responsibility to understand its
requirements. We are recommending that the Department revise the Agreement to ensure
that ECMC operates as intended.

Financial Restructuring

We were unable to determine if $4,737,340 that ECMC transferred from the FSB to its
Guarantor Federal and Operating Funds was authorized by the Agreement. ECMC and
the Department completed a new agreement on January 3, 2001. In the Agreement, the
Department acknowledged that ECMC reorganized its financial structure to meet the
requirements of the Higher Education Amendments of 1998, but the Agreement was
silent on whether the Department accepted the Federal and Operating Funds' beginning
balances.

In February 2000, ECMC submitted a proposal to the Department to restructure its
finances to comply with the Higher Education Amendments of 1998. The proposal
referred to calculating the value of foregone Administrative Cost Allowance (ACA) and
the anticipated guarantor collections retention of the Virginia post-default portfolio
subrogated to the Department. The resulting Agreement acknowledged that ECMC
segregated its operations and financial data between bankruptcy servicing (FSB), the
Guarantor (having both a Federal Fund and Operating Fund), and its other affiliates.
However, the Agreement did not provide details on ECMC's establishment of the



                                             4

Final Audit Report                                                           ED-OIGIA05-DOOOl

beginning balances of the funds or indicate if the Department accepted ECMC's
calculations. ECMC transferred $4,548,925 ($1,520,776 + $3,028,149 representing
forgone collection revenue and ACA, respectively) from the FSB to the Guarantor
Federal Fund and $188,415 (representing forgone ACA) to the Guarantor Operating
Fund. In a letter dated January 4, 2001, ECMC notified the Department that it had
transferred $1,520,776 and 2,588,513 (representing forgone collection revenue and ACA,
respectively) as part of establishing the Guarantor Federal Fund. 4 The Department did
not respond to ECMC's letter.

ECMC estimated the revenue it would have kept from the quarters ended September
1996, through September 1999, if it had not subrogated its defaulted loans to the
Department. For each quarter, ECMC estimated the amount of foregone collection
revenue it may have earned as a percentage of fiscal year (FY) 1995's actual collection
revenue. ECMC did not provide support for these estimates. ECMC also estimated the
amount of ACA it would have received from July 1996, through September 1998. To
estimate forgone ACA, ECMC applied the Department's rates to the total loans
guaranteed during that period.

Because the transfers were not discussed in the Agreement, there is no basis to determine
if the Department intended for them to occur or if ECMC correctly calculated the
amounts. Since ECMC did not perform collection activity on the loans subrogated to the
Department and previously agreed to forgo ACA, ECMC's transfers appear
unreasonable.

Cost Allocation

The Agreement contains several sections that affect ECMC's cost allocation process.
The relationship between these sections and the meaning of two of the terms used is
unclear. As a result, ECMC used federal funds to subsidize expenses that benefited the
Guarantor Operating Fund and for-profit lines of business. The Agreement also provides
for charging costs to the FSB related to maintaining excess capacity that appears to no
longer be needed.

Paragraphs 13 and 14 of the Agreement require ECMC to ensure that its reorganization is
consistent with its fiduciary responsibility and that federal funds are not used to support
unauthorized activities. ECMC shall ensure a proper allocation of costs and implement a
cost allocation plan approved by its auditors. Paragraphs 5.d and 5.e allow ECMC to
charge the costs of standby guarantor capacity and infrastructure to the FSB. The
Agreement is ambiguous because the terms "proper allocation" and "infrastructure" are
not defined.

ECMC has charged costs benefiting other lines of business, such as the Guarantor
Operating Fund and its for-profit affiliates, to the federally owned FSB. We reported that

4 ECMC reported transferring only $2,588,513 for ACA because ECMC did not consider the remaining
$439,636 in its initial establishment of the Guarantor Federal Fund. ECMC calculated forgone ACA for
the federal quarter ended September 30, 1998 and transferred those funds separately.


                                                   5

                                                                                                       I
                                                                                                       .'
Final Audit Report                                                    ED-OIG/A05-DOOOl

ECMC used the FSB Federal Reserve Fund to subsidize expenses that benefited other
lines of business such as the Guarantor Operating Fund and ECMC's for-profit affiliates. 5
This was primarily due to charging costs that benefited other lines of business to the
Infrastructure line of business and partially due to ECMC not following its cost allocation
plan.

The Federal government has established cost standards that provide accepted definitions
for cost allocation. Office of Management and Budget (OMB) Circular A-122
established principles for determining costs with non-profit organizations. It is similar to
OMB Circular A-87, cost principles for state, local and Indian tribal governments. The
Department has previously cited OMB Circular A-87 as the applicable source for
guaranty agencies' cost standards.

ECMC established the Infrastructure line of business within the FSB Federal Reserve
Fund to account for the costs of excess capacity and basic personnel, facilities, and
equipment that create the foundation of the corporation. The Agreement describes excess
capacity costs as those needed to accept large and sudden increases in loan volume, to
accommodate multiple state operations with diverse requirements, and to insure ECMC's
core guarantor systems are fully compliant with existing industry processing standards.

It appears that the Infrastructure line of business is not necessary. The history of
guaranty agency mergers in the FFEL program indicates that the excess capacity for
taking over other guaranty agencies provided for in the Agreement is no longer needed.
The Department has not instructed ECMC to takeover another guaranty agency's loan
portfolio since 1996 when ECMC became the designated guarantor for Virginia. All
other guarantors that ceased operations have been merged with guarantors other than
ECMC. The last guaranty agency to cease operations occurred in 1997. Since ECMC is
the guarantor for Virginia, it is required to maintain software and hardware to meet core
guarantor requirements consistent with industry standards to meet its current
responsibilities. Therefore, the cost of maintaining core requirements is not related to
maintaining excess capacity for future takeovers.

Ownership of Bankruptcy Collections

ECMC converted $14.6 million of federal funds to its property. Although the Agreement
states that any and all bankruptcy collections should be deposited into the FSB Federal
Reserve Fund, ECMC transferred $14.6 million to its Guarantor Operating Fund. These
transfers have benefited ECMC to the detriment of the Department, which owns the FSB
Federal Reserve Fund.

ECMC's proposal for restructuring its operations and the resulting Agreement require
ECMC to deposit revenues generated by ECMC's bankruptcy servicing operations into
the FSB Federal Reserve Fund. ECMC's proposal stated that the incorrect appearance
that ECMC subsidized its Guarantor operations with earnings derived from its
bankruptcy servicing operations was a problem that needed to be addressed. The

5   Control Number ED-OIG/A05-COOI4


                                              6

Final Audit Report 	                                                              ED-OIGfA05-DOOOI

Agreement, regarding bankruptcy collections, states in Paragraph 6 that the FSB shall
retain the amount that would otherwise be due to the Department under the Department's
regulations and in Paragraph 8 that ECMC shall deposit any and all payments it receives
on such loans from any source into the FSB Federal Reserve Fund. The Agreement does
not contain any other provisions allowing ECMC to transfer FSB funds to the Guarantor
Operating Fund.

ECMC relied on Paragraph 6 to support the transfer to its Guarantor Operating Fund of
interest that accrued on bankruptcy accounts from the time of the claims until the loans
were repurchased under the mandatory lender repurchase requirements in 34 C.F .R. §
682.4020).6 In a letter to the Department dated January 4,2001, ECMC restated
Paragraph 6 and indicated that it planned to transfer the remaining funds to the Guarantor
Operating Fund. ECMC officials stated that they never received a response from the
Department. Through December 2001, ECMC transferred $14.6 million from the FSB
Federal Reserve Fund to the Guarantor Operating Fund for interest accrued on loans from
the claim to repurchase dates.

ECMC also said its actions are consistent with federal regulations and industry practices.
In operating the FSB, ECMC is not serving as a guarantor but as a separate service
provider to the Department. Unlike other guaranty agencies, the Agreement requires
ECMC to segregate all revenues and expenses of the Guarantor and the FSB and to
deposit any and all payments it receives on bankruptcy loans from any source into its
FSB Federal Reserve Fund.

An Independent Public Accountant (lPA) audits ECMC annually. ECMC is also subject
to audits by the Office of Inspector General and the General Accounting Office. For the
nine months ended December 31, 2001, the balance ofECMC's Guarantor Federal Fund
totaled $16.8 million and the FSB Federal Reserve Fund totaled $141.9 million. In order
for the Department and other agencies to perform their oversight functions, the
agreements that define ECMC's responsibilities need to be sufficiently clear to ensure
that federal interests are protected.

Recommendations

We recommend the Chief Operating Officer of Federal Student Aid

2.1 	       Negotiate with ECMC to revise the Agreement to clearly state ECMC's
            obligations.

        (a) 	   Specify how ECMC should have established its Guarantor Federal and
                Operating Funds and describe the methodologies for any required
                calculations.


6Under 34 C.F.R. § 682.402 0), a lender must repurchase loans for which bankruptcy claims have been
paid. This can occur in the following situations, the bankruptcy case is dismissed, the loan is found to be
non-dischargeable, or other specified events occur.


                                                      7

Final Audit Report 	                                                   ED-OIG/A05-DOOOl

    (b)      Define "proper allocation" by referencing the applicable OMB cost principles
             for costs allocated to the FSB.

    (c)      Define "infrastructure" and its associated costs to preclude charging costs to
             FSB that benefit other lines of business.

    (d)      Delete the requirement for ECMC to maintain standby guarantor capacity and
             the provision for charging these costs to the FSB.

    (e)      Combine the references to the disposition of all bankruptcy collections to
             eliminate any possible misinterpretation.

2.2 	     Review ECMC's transactions to ensure they conform to the current Agreement
          and any revisions.

2.3 	     Recover any funds ECMC inappropriately transferred from the FSB.


                                      BACKGROUND

ECMC is a nonprofit corporation operating as a guaranty agency designated by the
Department. During the year ended March 31, 2000, ECMC worked with the
Department to develop a financial reporting methodology that would more accurately
reflect its functions and allow ECMC to more fully comply with the funding structure
required under the Higher Education Amendments of 1998. As a result, ECMC
established two reporting entities: ECMC - The Guarantor and ECMC - The Federal
Services Bureau. ECMC - The Guarantor is the designated guarantor for the State of
Virginia. ECMC - The Federal Services Bureau collects and monitors payments from
borrowers making payments on bankruptcy loans transferred from the Department and
other guaranty agencies. It also performs specialty student loan services for the
Department. On January 3, 2001, ECMC amended its agreement with the Department to
reflect the changes to its financial structure and operational responsibilities.

During the year ended March 31, 2001, ECMC reorganized its operations. Seven related­
party entities were incorporated and commenced operations on January 1,2001: ECMC
Group, Inc.; ECMC Group Holdings Foundation; ECMC Holdings Corporation; ECMC
Technology Services 'Corporation; ECMC Management Services Corporation;
Educational Credit Services Company; and ECMC Receivables Management
Corporation. The latter five are for-profit entities. ECMC is not the parent, and the
financial results of these entities are not included in the financial statements of ECMC.
ECMC is subject to the control of ECMC Group, Inc.




                                               8

Final Audit Report                                                 ED-OIGIAOS-DOOOl


              AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY 


During our audit ofECMC's compliance with the HEA and regulations governing the
establishment and operation of the Guarantor Federal and Operating Funds for the period
April 1, 2000 through March 31, 2001, we identified two issues related to the
Department's oversight of ECMC. The objective ofthis report is to present those issues.

The basis for this report is the work performed under draft Control Number ED­
OIG/A05-COOI4. As it relates to the information contained in this report, we
judgmentally selected and reviewed (1) ECMC's FY 1999,2000, and 2001 records
relevant to the establishment of the FSB and Guarantor Federal and Operating Funds, (2)
nine accounting transactions in FY 2001 related to the transfer of funds from the
Guarantor Federal Fund to the Guarantor Operating Fund, and (3) supporting
documentation for ECMC's shared operating expenses in FY 2001. Specifically, we
judgmentally selected February 2001 salary allocations for 15 cost centers, 11
transactions for consulting services, and outside services incurred for the quarter ended
March 31,2001. We conducted additional testing ofECMC's November 2001 personnel
expense allocations for those employees who spent time on Infrastructure and
Educational Credit Services Company. We also reviewed accounting adjustments made
for personnel expenses posted during the period ended December 31, 2001.

We reviewed ECMC's financial and OMB Circular A-l33 reports for the years ended
March 31, 1999, 2000, and 2001, to determine whether the IP A identified significant
findings related to our audit. We reviewed the FY 2000 and 2001 supporting working
papers ofthe IPA who performed those audits. We also interviewed various ECMC
personnel and Department officials.

To achieve our audit objectives, we relied on computer-processed data contained in
ECMC's automated general ledger system, Solomon IV for Windows®. To assess the
reliability of these data, we relied on the work completed by the IP A and we completed
additional tests by comparing computerized data to source documents. In assessing
general and application controls, the IPA reported a material weakness related to
inadequate access controls that could have allowed unauthorized access and system
misuse to ECMC's hardware and software applications. We concluded that the data were
sufficiently reliable to be used in meeting our objectives.

We conducted our field work from February 25,2002 through August 31, 2002. We
provided exception reports to Federal Student Aid Financial Partners on May 29, 2002
and November 6, 2002. We performed the majority of our field work at ECMC's
location in St. Paul, Minnesota and additional analysis at our office. We performed our
audit in accordance with generally accepted government auditing standards appropriate to
the scope of review described above.




                                             9

Final Audit Report                                                  ED-OIG/A05-DOOOI

                 STATEMENT ON MANAGEMENT CONTROLS 


We did not assess the Department's management controls applicable to its oversight of
guaranty agency activities because the purpose of this report is to discuss two issues
identified during our audit ofECMC's compliance with the Higher Education
Amendments of 1998.


                           ADMINISTRATIVE MATTERS

Please provide us with your final response to each open recommendation within 60 days
of the date of this report indicating what corrective actions you have taken or plan, and
related milestones.

In accordance with Office of Management and Budget Circular A-50, we will keep this
audit report on the Office of Inspector General list of unresolved audits until all open
issues have been resolved. Any reports unresolved after 180 days from date of issuance
will be shown as overdue in the Office of Inspector General's Semiannual Report to
Congress.

Please provide the Supervisor, Post Audit Group, Office of Chief Financial Officer and
the Office of Inspector General with quarterly status reports on promised corrective
actions until all such actions have been completed or continued follow-up is unnecessary.

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
Department of Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by
the Office of Inspector General are available, if requested, to members of the press and
general public to the extent information contained therein is not subject to exemptions in
the Act.

We appreciate the cooperation given us in the review. Should you have any questions
concerning this report, please call Richard J. Dowd, Regional Inspector General for Audit
Services at (312) 886-6503.


                                        Sincerely,


                                       f{JhJtJ
                                        Helen Lew
                                        Acting Assistant Inspector General
                                        for Audit Services




                                             10
FINAL AUDIT REPORT                                          ED·OIG/A05DOOOl                                          ATTACHMENT
                                                                                                                     Page 1 of3




                          UNITED STATES DEPARTMENT OF EDUCATION

                                           OFFICE OF' POSTSECONDARY EDUCATION


                                                            MAR I 	7 2003                                 THE ASSISTANT SECRETARY




Mr. Richard J. Dowd
Regional Inspector General for Audit Services
U.S. Department of Education
Office of the lnspector General
III North Canal Street, Suite 940
Chicago, Illinois 60606

Dear Mr. Dowd:

We have received the Office of the Inspector General's (OrG) Draft Audit Report (the
Report) presenting issues related to Department of Education (the Department) oversight
identified during the audit of Educational Credit Management Corporation's (BeMC)
administration of the Federal Family Education (FFEL) Program Federal and Operating
Funds for the period April 1) 2000 through March 31, 2001. We appreciate the
opportunity to review and comment on the issues and recorrunendations contained in the
Draft Audit Report.

Issue No.1 - Recall of excess rese.rve funds by the DeRartment
The OIG believes that it is not prudent to leave excess reserve funds at ECMC. ECMC
reported $103 million in excess funds, calculated on a cash basis, as of the federal fiscal
year ended September 30, 2001. Guaranty agencies are now required to report their
financial data to the Department on an accrual basis. ECMC's reorganization and
financial restructuring added five new for-profit corporations, the costs of three of which
are allocated to the Federal Services Bureau (FSB) Federal Reserve Fund and the
Guarantor Operating Fund because ECMC is currently their only customer. OIG
specifically recommends that the Chief Operating Officer of Federal Student Aid:

1.1 	     Recall $103 million in estimated excess reserves as of September 30, 2001, as
          permitted by the Agreement_

1.2 	      Recall excess reserves in each subsequent year.

1.3 	      Revise the Agreement with ECMC to describe the source of the data and require
           the data be reported on an accrual basis to calculate the amount of excess funds
           held in the FSB each federal fiscal yeat'.

1.4 	      Evaluate whether the percentage of annual expenses ECMC is allowed to retain in
           the FSB Federal Reserve Fund is a reasonable amount.


                                           1990 K STREET, N.W. WASHINGTON, D.C. 20006

        OUr mission is UI en.'11U'e   equal access to education and [0 prornots sducational eJU:/!Uenc/! throughout the Nation..
 FINAL AUDIT REPORT                    ED-OIG/A05DOOOI                      ATTACHMENT
                                                                            Page 2 of3




Page 2 - Mr. Richard J_ Dowd



Generally, we concur in principle with the finding and are evaluating the
recommendation and other options for addressing this issue. The Office of
Postsecondary Education (OPE). in conjunction with Federal Student Aid (FSA). has
been working to determine steps required to recall the $103 million in excess reserves as
of September 30, 2001 and 'in subsequent years. OPE and FSA will also revise our
Agreement with ECMC to describe data sources and require reporting of data on an
accrual basis when calculating excess funds. Lastly, we will evaluate whether the
percentage of annual expenses ECMC is allowed to retain in the FSB Federal Reserve
Fund is reasonable. We estimate that these actions will be completed by July 1,2003.

Issue No.2 - Clarify ECMC's Agreement with the Department
The Report states that the Agreement between the Department and ECMC is unclear in
the areas of financial restructuring, cost allocation, and ownership of bankruptcy
collections. The Agreement affects significant amounts offederal funds and needs to be
sufficiently clear for the Department and other parties with oversight responsibility to
understand its requirements. OIG specifically recommends that the Chief Operating
Officer of Federal Student Aid:

2.1    Revise the Agreement to clearly state ECMC's obligations.

       (a) Specify how ECMC should have established its Guarantor Federal and
           Operating Funds and describe the methodologies for any required
           calculations.
       (b) Define "proper allocation" by referencing the applicable OMB cost principles
           for costs allocated to the FSB.
       (c) Defme "infrastructure" and its associated costs to preclude charging costs to
           FSB that benefit other lines of business.
       (d) Delete the requirement for ECMC to maintain standby guarantor capacity and
           the provision for charging these costs to the FSB.
       (e) Combine the references to the disposition of all bankruptcy collections to
           eliminate any possible misinterpretation.

2.2    Review ECMC's transactions to ensure they conform to the revised Agreement.

2.3    Recover any funds ECMC inappropriately transferred from the FSB.
                                ~
    FINAL AUDIT REPORT                     ED-OIG/A05DOOOI                         ATTACHMENT
                                                                                   Page 3 of3




    Page 3 - Mr. Richard 1. Dowd



    Generally, we concur with the findings and are evaluating the recommendations and
    other options for addressing this issue. OPE, in conjunction with FSA, will work to
    determine what revisions are needed for the Agreement between the Department and
    ECMC in order to address oro's concerns. They will review ECMC's transactions to
    ensure they conform to the revised Agreement and detennine whether and how to recover
    any funds ECMC inappropriately transferred from the FSB. We anticipate that these
    actions will be complete by September 30, 2003.

    I trust this letter addresses your concerns. Please do not hesitate to contact me if I can be
    of any further assistance to you.

                                           Sincerely,




    cc: Theresa S. Shaw




-_._---------_._---------------­
